No. 20-6786
IN THE

Oupreme Court of the Eniteti Otateo
ERICA YVONNE SHEPPARD,
Petitioner,
v.
BOBBY LUMPKIN, DIRECTOR, TEXAS DEPARTMENT OF
CRIMINAL JUSTICE, CORRECTIONAL INSTITUTIONS
DIVISION,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

BRIEF FOR AMICI CURIAE DOMESTIC
VIOLENCE ADVOCATES IN SUPPORT OF
PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,905 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 4, 2021.

( 1Colin Casey ogan
Wilson-Epes Printing Co., Inc.

